OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/UGANDA’S
DEVELOPMENT CREDIT
AUTHORITY
AUDIT REPORT NO. 4-617-06-004-P

February 13, 2006




PRETORIA, SOUTH AFRICA
Office of Inspector General




February 13, 2006

MEMORANDUM

 TO:                  USAID/Uganda Mission Director, Margot Ellis
FROM:                Regional Inspector General/Pretoria, Jay Rollins /s/

SUBJECT:             Audit of USAID/Uganda’s Development Credit Authority
                     (Report No. 4-617-06-004-P)

This memorandum transmits our report on the subject audit. In finalizing this report, we
considered management comments on the draft report and have included those
comments in their entirety, as Appendix II.

This report has five recommendations to improve USAID/Uganda’s oversight of its
Development Credit Authority. In response to the draft report USAID/Uganda concurred
with four recommendations and included corrective action plans and target completion
dates. As part of this concurrence, Recommendation Nos. 4 and 5, which called for the
de-obligation of $100,000 and $5,317 respectively, the Mission has agreed with this
action. We consider that a management decision has been reached for Recommendation
Nos. 1, 2, 4, and 5. Please provide the Office of Audit, Performance, and Compliance
Division with the necessary documentation to achieve final action on these
recommendations. In the case of Recommendation No. 3, USAID/Uganda provided
concurrence but no implementation plan. A management decision can be reached for
Recommendation No. 3 when USAID/Uganda provides an implementation plan and target
completion date. Please advise my office within 30 days of the actions you have planned
or taken to implement Recommendation No. 3.

I appreciate the cooperation and courtesy extended to my staff throughout the audit.




U.S. Agency for International Development
100 Totius Street
Groenkloof X5
Pretoria 0181, South Africa
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objective .................................................................................................................. 2

       Did USAID/Uganda manage its Development Credit
       Authority guarantees to ensure that selected intended
       results were achieved?

Audit Findings ................................................................................................................. 3

     Interim Utilization Goals Are Needed to
     Assist with Monitoring ................................................................................................. 5

     Proactive Monitoring Is Needed .................................................................................. 7

     Additional Information Needed to Assist
     with Accountability and Monitoring .............................................................................. 8

     Deobligation of DCA Subsidies Can Put
     Funds to Better Use .................................................................................................. 10

Evaluation of Management Comments ....................................................................... 12

Appendix I – Scope and Methodology ........................................................................ 13

Appendix II – Management Comments ....................................................................... 15
SUMMARY OF RESULTS
The Regional Inspector General/Pretoria conducted this audit to determine whether
USAID/Uganda managed its Development Credit Authority (DCA) guarantees to ensure
that selected intended results were achieved. (See pages 2-3.)

USAID/Uganda managed its DCA guarantees to ensure that selected intended results
were achieved. The Mission’s DCA guarantees successfully increased the supply of
credit for small and medium enterprises (SMEs) through financial institutions. As of
September 30, 2005, three of the seven financial institutions that participated under the
Mission’s Phase I guarantees had already utilized their maximum portfolio amounts.
The total loans guaranteed under Phases I and II amounted to $12.1 million. (See
pages 3-4.)

Although USAID/Uganda had successfully achieved its intended results, the Mission
needed to improve its oversight of the DCA guarantees. The audit identified the following
areas that showed the need to strengthen the DCA guarantees. The Mission had not
developed DCA utilization goals for determining whether the DCAs were being under- or
over-utilized, nor had it required that its monitoring contractor visit the financial institutions.
(See pages 5-6.) Also, the Mission had not conducted site visits or reviewed DCA
guarantee files at financial institutions. (See pages 7-8.) In addition, the Mission and its
contractor did not require the financial institutions to provide sufficient loan guarantee
information to allow for proper accountability and monitoring. (See pages 8-10.) Finally,
one of the participating financial institutions had written only one guaranteed loan. In this
case, the Mission needs to take action to deobligate $105,317 in associated subsidy funds
for this financial institution in order to put the funds to better use. (See pages 10-11.)

This report includes five recommendations to assist USAID/Uganda in improving its
oversight of its Development Credit Authority. (See pages 6, 8, 10, and 11.) In response
to the draft report USAID/Uganda concurred with four recommendations and provided
corrective action plans and target completion dates. (See pages 15-17.) As part of this
concurrence, Recommendation Nos. 4 and 5, which called for the de-obligation of
$100,000 and $5,317 respectively, the Mission has agreed with this action. Therefore, we
consider that a management decision has been reached for Recommendation Nos. 1, 2,
4, and 5. In the case of Recommendation No. 3, the Mission provided concurrence but it
did not provide an implementation plan to address the recommendation. A management
decision can be reached for Recommendation No. 3 when USAID/Uganda provides an
implementation plan and target date to RIG/Pretoria.




                                                                                                  1
BACKGROUND
The Development Credit Authority (DCA) is a broad financing authority that allows USAID
to use credit to pursue any of the development purposes specified under the Foreign
Assistance Act of 1961, as amended. The DCA guarantees are designed to overcome
lending obstacles encountered in the commercial banking sector, which is often unwilling to
lend funds to a particular sector of borrower(s). USAID’s DCA guarantees loans up to a
certain amount, thus encouraging commercial banks to finance targeted development
projects that otherwise would most likely not be funded. These guarantees also encourage
local private-sector lending and stimulate the development of local capital markets.

Congress gave USAID the general authority to provide loan and bond guarantees in its
Fiscal Year 1998 Appropriations Act. In April 1999, the Office of Management and Budget
certified USAID’s capacity to properly manage credit programs—to accurately assess risk
and to operate viable financial management and accounting systems. Subsequently,
USAID began to exercise its DCA authority.

DCA credit guarantees are typically designed by USAID’s overseas missions and managed
jointly by the mission and USAID’s Office of Development Credit (ODC). Guarantees
typically cover up to 50 percent of a loan. Missions are primarily responsible for
developmental monitoring, while ODC is primarily responsible for financial monitoring.

While four types of DCA guarantees are available, USAID/Uganda has used only one
type—the loan portfolio guarantee.1 USAID/Uganda’s loan portfolio guarantees were
composed of two multi-institutional DCAs and one collateral management/warehouse
receipts initiative. The fiscal year 2001 loan portfolio guarantees are referred to later in this
report as Phase I. The Phase I program was approved for a five-year period ending on
January 31, 2007. Fiscal year 2005 loan portfolio guarantees are referred to as Phase II in
this report. The Phase II program was approved for a four-year period ending May 31,
2009. USAID/Uganda’s third program the collateral management/warehouse receipts loan
portfolio guarantee included three institutions and was approved for a three-year period
ending in December 2008. As of September 30, 2005, Phase I had resulted in 256 DCA-
guaranteed loans, making credit of $22.5 million available while guaranteeing a maximum
of $11.25 million. Under Phase II, as of the same date, there were 55 guaranteed loans,
making $1.74 million of credit available while guaranteeing a maximum of $0.87 million. At
the time of this audit, there were no collateral management/warehouse receipts activities to
report.

AUDIT OBJECTIVE
This audit was conducted at USAID/Uganda as part of a planned series of individual
mission audits of USAID’s Development Credit Authority. The audit was conducted to
answer the following question:


1
 In a loan portfolio guarantee, USAID signs an agreement with a partnering bank and agrees to
partially guarantee individual loans made by the bank to borrowers meeting strict eligibility
guidelines in such areas as type of borrower and project, projected positive cash flows,
creditworthiness, and other factors.


                                                                                               2
     •   Did USAID/Uganda manage its Development Credit Authority guarantees to
         ensure that selected intended results were achieved?

Appendix I contains a discussion of the audit’s scope and methodology.


AUDIT FINDINGS
USAID/Uganda had managed its Development Credit Authority (DCA) guarantees to
ensure that selected intended results were achieved, but it also identified several areas
where additional oversight would result in improved accountability and monitoring.

USAID/Uganda managed two multi-institutional DCA guarantees—henceforth referred to
as Phase I and Phase II. In addition, the Mission’s loan portfolio guarantees also
included one collateral management/warehouse receipts initiative. Phase I included
seven financial institutions that included lending to micro finance institutions and ends in
2007. The Phase I guarantee was intended to strengthen the ability of financial
institutions to finance loans to businesses in targeted sectors in the Ugandan economy,
thereby stimulating economic growth. Specifically, the guarantee agreements supported
the Mission’s Strategic Objective (SO) 7, described as “Expanded Sustainable Economic
Opportunities for Rural Sector Growth.” The DCA guaranteed loans strived to address
the objective, “Strengthen the Financial Sector’s Contribution to Economic Growth”,
found under this SO. As of September 30, 2005, three of the seven financial institutions
under Phase I had utilized their entire portfolio amounts; the other four financial
institutions remained with portfolio utilizations ranging from 47.5 to 93.3 percent.

A December 2003 independent consultant’s assessment of USAID/Uganda’s Phase I
guarantee noted that the Mission had “made substantial progress toward its goals…to
foster increased lending for productive purposes with emphasis on sectors that are
believed to be currently underserved by the financial sector. These sectors include
Small and Medium Sized Enterprise (SME) loans (between $1,500 and $212,500 in
size), as well as agriculture/natural resource credits, export related/foreign exchange
earning enterprises and Micro-Finance Institutions.” In addition, the Mission’s Annual
Report for Fiscal Year 2005 reported that the DCA guaranteed loans had achieved a
positive impact by “increasing demand and supply of credit for small and medium
enterprises (SMEs) and financial institutions to lend to new clients.”

Phase II included (a) five financial institutions that were also participants under Phase I,
of which one is a micro-finance deposit taking institution. This Phase II guarantee was
developed in response to the demand for guaranteed loans experienced under Phase I.
Phase II was targeted towards the “missing middle” borrowers with a lower maximum
portfolio amount available to a single borrower ($250,000, down from $1 million available
under Phase I).

The collateral management/warehouse receipts loan portfolio guarantee was developed
for three financial institutions to receive private non-perishable grains warehouse
receipts as collateral. The intent was to increase the ability of traders (including farmer
owned cooperatives) to buy more grain earlier from farmers, improving the quality of the
traded grain and increasing price stability for farmers.                    The collateral
management/warehouse receipts loan portfolio had no activities available to audit.


                                                                                          3
To ensure that loans made under a portfolio guarantee were used to achieve intended
results, each agreement between USAID and the partner financial institution provided
specific loan eligibility guidelines. When a partner financial institution approved and
disbursed a loan under a guarantee, it informed the Mission’s contractor (who had been
delegated DCA monitoring responsibilities by the Mission) by notification letter. When
questions about the notification letter arose, the contractor contacted the respective
financial institution for additional information. Once the contractor received notification
from a financial institution of a guaranteed loan, it sent an acknowledgement of
notification letter to that institution.

USAID/Uganda’s loan guarantees funded activities that have made a positive impact on
the respective borrowers and helped fulfill the Mission’s development objectives.
Financial institutions’ officials interviewed during the audit expressed support for the
DCA guarantees. They noted that because of the guarantees, they were able to provide
borrowers with loans that they would not have otherwise provided. We visited two
borrowers who had obtained a DCA guaranteed loan from two different financial
institutions and found that the borrowers used the loans for the purposes for which they
were intended. For example:

•   One loan guarantee was provided to a medium-sized fish processing company.
    After being in business for 5 years, the company decided to refurbish its equipment
    and used the DCA guaranteed loan to purchase new refrigerator and freezer units for
    storing fish. This allowed the company to export frozen and chilled fish products
    throughout the world, including the Middle East and Europe.

•   Loan guarantees benefited a grain export company. The company had difficulty
    obtaining previous loans because it did not have sufficient collateral. They were able
    to get DCA guaranteed loan to provide working capital. Most of their products were
    sold to the United Nations’ World Food Programme. However, the uncertainty of the
    commodity market remains a major challenge for this company.




                                                                                         4
Photograph of fish-processing activities at a company that is a DCA guarantee loan recipient.
Included in the photo are a RIG/Pretoria auditor and company officials. The company is located in
Kampala, Uganda. (Photograph taken in October 2005 by a RIG/Pretoria auditor.)

Although USAID/Uganda achieved intended results, the audit identified areas where
increased oversight would result in improved accountability and monitoring. The
subsequent sections of this report will more fully address these areas for improvement.

Interim Utilization Goals Are
Needed to Assist with Monitoring
 Summary: The Mission did not have a process to gauge whether DCA guarantee
 utilizations were outperforming or underperforming planned utilizations—a process
 required in the DCA Operations Manual. The Mission could not determine if
 performance was being under- or over-utilized because it did not have interim utilization
 goals for the guarantees. Instead, the Mission focused on using the complete loan
 guarantees by the end of the guarantee period to gauge performance. Because it did not
 have sufficient and timely information on guarantee utilizations, the Mission did not
 provide a timely remedy for under-utilization of one guarantee.

The DCA Operations Manual, section IV (E), requires USAID’s Office of Development
Credit to monitor utilization of guarantees by financial institutions in a timely manner. It also
requires missions to provide feedback to determine whether the use of DCA guarantees
has out-performed or under-performed planned utilization.

The Mission did not establish interim utilization goals for its loan guarantees. Nor did the
Mission have a process for determining whether the participating financial institutions were
utilizing their guarantees in a timely manner. The Mission did maintain cumulative
utilization rates for each of its participating financial institutions, but, without targets to




                                                                                               5
compare against, there was no basis to determine whether performance was being under-
or over-utilized.

Instead of focusing on interim utilization goals, the Mission focused on utilizing the
complete loan guarantee portfolio by the end of the loan guarantee period. There was no
emphasis on establishing interim utilization goals as a check for determining progress for
each financial institution. DCA guarantee portfolio amounts were allocated to the financial
institutions for use in specified periods—generally 5 years for Phase I activities and 4 years
for Phase II activities—without setting interim goals for the utilization of those funds.

Because it did not have interim utilization goals, the Mission was not able to provide a
timely remedy for under-utilization of a guarantee. For instance, one of the participating
financial institutions was provided a $4 million loan portfolio guarantee in February of 2002.
The financial institution did not provide its first DCA-guaranteed loan, valued at $278,552,
until December of 2002—a 10-month lag. The loan portfolio guarantee amount was
eventually reduced to $466,445 because only one DCA guaranteed credit loan had been
written. No additional DCA guaranteed loans were given by this financial institution. The
Mission’s management noted that, in this case, the use of interim utilization goals would
have been helpful to compare against annual goals since, without goals, it was difficult to
know whether the financial institution was over-or under-performing. In this case, the
Mission could have acted sooner to remedy the situation either by encouraging additional
utilization or, if deemed appropriate, by withdrawing the guarantee earlier for use by other
financial institutions.

In addition, under Phase I, as of September 30, 2005, two financial institutions had used
47.5 percent and 55.7 percent of their respective DCA portfolios but—as in the case of the
above-mentioned financial institution—without interim utilization goals, there was no basis
on which to determine if these financial institutions were over- or under-performing. As of
September 30, 2005, Phase I had 17 months left, and Phase II had been in existence for
about half a year (with 3.5 years remaining). As of that date, Phase I’s overall utilization
rate was at 85 percent while Phase II was at 11 percent.

In order to be in a position to fully utilize the loan guarantee portfolios before time runs out
for the DCA guaranteed loan, the Mission needs to act quickly to set interim utilization
goals. If goals are not established, the possibility exists that the Mission will not be in a
position to take any remedial action for DCA funds that will not be utilized. To assist the
Mission in this effort, we are providing the following recommendation.

   Recommendation No. 1: We recommend that USAID/Uganda develop interim
   utilization goals for the Development Credit Authority guarantees. Having such
   goals in place, the Mission will have information that will enable it to better
   monitor progress toward achieving the utilization goals.




                                                                                              6
Proactive Monitoring Is Needed
 Summary: The Mission did not monitor the DCA guarantees by periodically
 conducting site visits or reviewing the DCA guarantee loan files at financial institutions
 as required by both the Office of Management and Budget (OMB) and USAID. This
 was caused by the Mission delegating its monitoring responsibilities to a contractor,
 and as part of this monitoring process, it did not require the contractor to perform site
 visits because they were not aware that it needed to be done. Without proactive
 monitoring of the guarantees through periodic site visits and file reviews, there was
 reduced assurance that guaranteed loans were in compliance with guarantee
 requirements.


OMB Circular A-129, Appendix A, Section III.B.3, states that to evaluate and enforce
“lender and servicer performance,” agencies should conduct on-site reviews and
summarize review findings in written reports with recommended corrective actions. It
further states that agencies should conduct annual on-site reviews of all “lenders and
servicers” with substantial loan volume or questionable programs. In compliance with
the OMB requirement, USAID’s DCA Operations Manual, section II.C.10, requires
mission officer(s) responsible for a DCA activity to conduct and report on site visits to the
guaranteed party, in this case, the financial institutions. The site visits should be done
annually from the date the agreement is signed, particularly for guarantees with
substantial loan volumes, signs of deterioration in guaranteed loan(s), or high default
rates. Further, it denotes that the responsible mission staff should meet with the partner
financial institution management, establish the status of the project, and determine
compliance and performance issues. If possible, as part of the site visit, the Operations
Manual provides for requesting at least one visit to a borrower that received a DCA-
guaranteed loan. The summary of the visit should include details of (1) the loan amount
and purpose, (2) the loan terms, (3) the justification for using the DCA guarantee, (4)
how the loan was repaid, and (5) the resulting benefits for the borrower.

The Mission did not proactively monitor the DCA guaranteed loans by periodically
conducting site visits and reviewing the DCA guaranteed loan files at financial
institutions. Two of the five financial institutions visited during this audit stated that they
would welcome visits by the Mission to obtain guidance, as well as to receive feedback
on their existing DCA guaranteed loan processes. The Mission did not conduct this type
of monitoring, or require that it be done by their contractor, because they were not aware
that it needed to be done.

The Mission had delegated its monitoring responsibilities to a contractor and, as part of
this monitoring process, did not require the contractor to perform any site visits. The
contractor’s monitoring was limited to checking data input by the financial institutions into
USAID’s Credit Management System, reviewing notification letters sent by the financial
institutions, and phoning or emailing contacts.

Because there was no proactive monitoring taking place through site visits or file
reviews, there was reduced assurance that the guaranteed loans were in compliance
with guarantee requirements.




                                                                                             7
Site visits are an important activity that, if done properly, can provide the Mission better
assurance that its DCA guarantees are complying with guarantee requirements and
adhering to the intent of guarantees. Proactive monitoring would also establish proper
oversight of the DCA activities of the financial institutions. In order to strengthen this
management control and improve the monitoring of DCA guaranteed loans, we are
making the following recommendation.

   Recommendation No. 2: We recommend that USAID/Uganda develop Mission-
   specific procedures to require periodic site visits by Mission personnel and/or
   their contractor to financial institutions and borrowers in order to improve the
   monitoring of Development Credit Authority loan guarantees. Such visits should
   include a review of guaranteed loan files. When site visits have been performed,
   the visits should be documented and maintained in the Mission’s files.


Additional Information Needed to Assist with
Accountability and Monitoring
 Summary: Both U.S. Standards for Internal Control and USAID’s Automated Directives
 System (ADS) recognize accountability as an important precept for government
 programs. The Mission and its contractor did not have sufficient loan guarantee
 information on key items such as: (1) borrower address, (2) collateral, and (3) the basis
 of borrower eligibility to ensure proper accountability. This situation had developed
 because the Mission and/or its contractor did not require that the financial institutions
 include this additional information in the notification letters that they sent. Due to this
 lack of information, it was difficult to determine whether all DCA guaranteed loan
 resources were expended as intended.

The U.S. Standards for Internal Control in the Federal Government (November 1999),
states that internal control is part of an organization’s management that provides
reasonable assurance of achieving the following objectives, (1) effectiveness and
efficiency of operations, (2) reliability of financial reporting, and (3) compliance with
applicable laws and regulations. Internal control which is synonymous with management
control helps government program managers to achieve desired results through effective
stewardship of public resources.           Similarly, USAID’s ADS glossary identifies
management controls as “The organization, policies, and procedures used to reasonably
ensure that (a) programs achieve their intended results; (b) resources are used in
accordance with the Agency's mission; (c) programs and resources are protected from
waste, fraud, and mismanagement; (d) laws and regulations are followed; and (e)
reliable and timely information is obtained, maintained, reported, and used for decision
making."

The written information that the contractor (who was delegated the Mission’s monitoring
responsibilities) obtained from the financial institutions about their loan guarantees did
not identify key items such as the (1) address of the borrower, (2) collateral and its value
(if any), and (3) rationale why the borrower was eligible for the loan guarantee. Thus,
the Mission and the contractor did not have sufficient loan guarantee information readily
available to provide for proper accountability and monitoring.

This situation had developed because the Mission and/or its contractor did not require
this additional information in the notification letters that are received from the financial


                                                                                          8
institutions. Notification letters on DCA-guaranteed loans were sent from the financial
institutions to the contractor to provide basic information such as borrower name and
loan terms. This reporting method was the primary means that the contractor used for
obtaining DCA guaranteed loan information from the financial institutions. According to
the contractor’s staff, when questions arose from the notification letters, they would
contact the financial institution by phone or email to obtain additional information or
clarification.

Because the contractor did not know the borrowers’ addresses, collaterals used to
secure the loans, and rationale for borrowers’ eligibility, it was difficult to determine if all
of the DCA guarantee resources had been expended as intended and the guarantees
were proactively monitored. In the case of collateral, USAID’s contractor was not aware
of collateral and its value used to secure a loan until a claim was made on a defaulted
loan. Moreover, USAID and its contractor did not know the basis of why a borrower was
deemed eligible for the DCA guarantee (e.g., not having sufficient collateral, new
customer unable to obtain a regular loan, etc.). The audit team found the following
examples where insufficient loan guarantee information resulted in accountability and
monitoring issues:

   •   The audit team was not able to determine where DCA guarantee loans had been
       provided (rural versus metropolitan areas) using the contractor’s data because
       the borrowers’ addresses were missing from that data.

   •   One loan guarantee had been written for a business which did not exist when the
       loan was guaranteed (the financial institution identified this problem when the
       business defaulted on the loan).

   •   One borrower used the same collateral for DCA guarantee loans from two
       different financial institutions. Only when the borrower defaulted on both loans
       did USAID's contractor become aware that the same collateral had been
       pledged.

   •   USAID’s contractor had to contact a participating DCA financial institution to
       determine whether or not a newspaper advertisement regarding the sale of a
       borrower’s property was collateral used to secure a DCA-guaranteed loan. The
       financial institution verified that the property was indeed the same collateral used
       for the guarantee.

   •   A review of financial institution loan files found cases where the DCA guaranteed
       loan borrowers had previous and ongoing relationships with the financial
       institution. In such cases, there was no loan documentation that provided a
       rationale of why this borrower was selected for the DCA-guaranteed loan; as a
       result, the audit team needed to ask financial institution officials for an
       explanation.


In order for the Mission and its contractor to better fulfill their accountability and
monitoring responsibilities, additional information needs to be obtained from the
participating financial institutions. This information could be most easily included when
the financial institutions submit notification letters. With the receipt of this additional
information, the Mission and/or its contractor would be able to strengthen management


                                                                                              9
controls to ensure that DCA resources are (1) used as intended, (2) protected from
waste, fraud, and mismanagement, and (3) utilized in compliance with established
regulations and guidelines. This additional information could also be used to enhance
proactive monitoring activities as described in the previous section. To help the Mission
strengthen its accountability and monitoring responsibilities, we are recommending the
following:


   Recommendation No. 3: We recommend that USAID/Uganda submit written
   notification to the financial institutions participating in the Development Credit
   Authority requiring that the borrower's address, type and value of collateral (when
   it is used to secure the loan guarantee), and the basis for determining borrower
   eligibility be included in the notification letter for all future loan guarantees. If
   appraisals are required by the financial institutions to secure the loan, appraisal
   copies should also be provided with the notification letters.


Deobligation of DCA Subsidies
Can Put Funds to Better Use
 Summary: The DCA Operations Manual provides for the deobligation of subsidy
 funds if a determination is made that not all of the funds will be used. The Mission has
 DCA subsidy funds valued at $105,317 available to deobligate from one of the
 financial institutions participating in the DCA. The Mission had not taken the
 necessary action to deobligate these unused subsidy funds because they were
 awaiting formal clearance to proceed. As a result, as long as these funds remain idle,
 this portion of DCA funding will not be used for its intended purpose.


The DCA Operations Manual, section VI(B), states that if it is determined that either all
or a portion of the subsidy funds in the Program Account will not be used, then the
Mission, specifically the obligating official, should consider deobligating the funds. One
of the steps involved in deobligating DCA program account funds includes the approval
of the Mission Director. Further, it states that upon the Mission Director’s approval, the
Mission Controller submits the approved memo and the termination letter to the bureau
and deobligates the funds in the Mission Accounting and Control System (MACS). Once
this has been accomplished, and if the Mission intends to use the deobligated funds for
a new DCA guarantee, the “Mission Officer” prepares a memo to the Bureau to
reobligate these funds for another approved DCA guarantee. It also states that if the
mission intends to re-use the funds for another DCA guarantee, the funds will be
returned to the mission for reobligation by the end of the next quarter.

USAID/Uganda had DCA subsidy funds valued at $105,317 which were available to
deobligate. There were two reasons why these funds were available for deobligation.
First, the Mission Director had reduced the guaranteed loan portfolio amount of one
financial institution from $4 million to $466,445. This occurred because this institution,
under Phase I of the DCA guarantee, had written only one guaranteed loan valued at
$278,552. According to a Mission official, the Mission had negotiated with USAID’s
Office of Development Credit to deobligate and then reobligate the $100,000 in subsidy
funds associated with the reduction in the loan portfolio amount for use in another of the
Mission’s DCA guarantees. However, USAID/Uganda’s Controller had not deobligated


                                                                                           10
the $100,000 in subsidy funds in MACS, as specified in the DCA Operations Manual.
Second, this same financial institution had an unused portion of its loan portfolio valued
at $187,893 ($466,445 - $278,552). The Mission had not deobligated the $5,317 of
subsidy funds associated with an unused loan portfolio valued at $187,893.

The Mission had not taken the necessary action to deobligate these unused subsidy
funds to ensure that it could re-obligate the funds as soon as possible to benefit DCA
guaranteed loans. The Mission had not deobligated the $100,000 in subsidy funds
associated with the prior reduction in the loan portfolio amount that it had negotiated with
USAID’s Office of Development Credit because according to a Mission Official they were
awaiting formal clearance from the Office of Management and Budget (OMB) and
USAID’s Bureau of Policy and Program Coordination (PPC). However, a requirement
for a formal clearance process involving both OMB and PPC prior to the Mission de-
obligating the DCA funds does not appear as part of the procedural steps identified
earlier in this section of the report. The Mission had not deobligated the $5,317 of
subsidy funds associated with the unused loan portfolio because according to the
Mission, discussions with the financial institution had led them to believe that there was
a potential borrower for the unused loan portfolio. However, these plans never came to
fruition, and the financial institution expressed no interest in providing future loans under
DCA guaranteed loans. As a result, $105,317 in DCA funding that was meant to
strengthen the Ugandan financial sector and benefit eligible borrowers was not being
used for its intended purpose. Having these subsidy funds made available through the
deobligation/reobligation process for the DCA guarantees would result in the ability of
the Mission to leverage a considerable amount of guaranteed loans. For instance, in the
case of the financial institution from which the subsidy funds could be deobligated, re-
obligating the $105,317 could result in over $3.7 million that the Mission would have
available for DCA guaranteed loans.

Although the Mission had taken initial action to deobligate $100,000 of subsidy funds for
DCA guarantees, the Mission’s Controller needs to complete the deobligation of these
funds in MACs. Once completed, additional action needs to be taken to ensure that
these funds are reobligated. Taking action to complete the process that is required to
deobligate these funds will result in the Mission being in a better position to ensure that it
obtains these reobligated funds in a timely manner. In addition, because the same
financial institution does not intend to utilize the unused balance of its DCA portfolio, the
Mission needs to deobligate these funds so that they can be put to better use and to
ensure that it receives the funds as soon as possible to benefit the DCA loan
guarantees. As long as these funds remain idle, this portion of DCA funding will not be
used for its intended purpose.


   Recommendation No. 4: We recommend that USAID/Uganda deobligate the
   $100,000 in subsidy funds associated with the reduction in the loan portfolio
   amount for the one inactive financial institution.
   Recommendation No. 5: We recommend that USAID/Uganda deobligate $5,317
   in subsidy funds related to the unused loan guarantee for one inactive financial
   institution.




                                                                                           11
EVALUATION OF
MANAGEMENT COMMENTS
In responding to our draft report, USAID/Uganda management concurred with four of the
recommendations and provided action plans and target completion dates. For
Recommendation No. 1, the Mission indicated that it will incorporate targets into its
Performance Management Plan and that these targets will be analyzed semiannually.
The target date for completing this recommendation is March 30, 2006. In the case of
recommendation No. 2, the Mission noted that electronic and paper copies of summaries
of the site visit schedule, site visit reports, and biennial reviews will be maintained in the
program files. It is anticipated that final action for this recommendation will be achieved
by March 30, 2006. In the case of Recommendation No. 4, the Mission reported that it
had completed the process to de-obligate $100,000 in January 2006. However,
USAID/Uganda did not provide any supporting documentation for this action. They also
noted their intent to re-obligate these funds prior to the end of fiscal year 2006 for
supporting other Development Credit Authority guarantees in Uganda.                        For
Recommendation No. 5, USAID/Uganda stated that it will terminate the remaining DCA
facility and de-obligate $5,317 of remaining subsidy funds. March 31, 2006, is the target
date for de-obligating these funds. It is anticipated that these funds will be re-obligated
by September 30, 2006. Based on the above information, we consider that a
management decision has been reached for Recommendation Nos. 1, 2, 4, and 5.

For Recommendation No. 3, the Mission concurred with the recommendation but did not
provide an implementation plan to address several important facets of the
recommendation.         These include submitting written notification to the financial
institutions participating in the Development Credit Authority requiring that the (1)
borrower's address, (2) type and value of collateral (when it is used to secure the loan
guarantee), and (3) the basis for determining borrower eligibility be included in the
notification letter for all future loan guarantees. The recommendation also noted that if
appraisals are required by the financial institutions to secure the loan, appraisal copies
should also be provided with the notification letters. A management decision can be
reached for Recommendation No. 3 when USAID/Uganda provides an implementation
plan and target completion date to RIG/Pretoria.

In addition, in its comments the Mission provided supplemental information for the
background section of this report. Some of this information has been included in this
report to provide clarity. Report formatting requirements for the background section did
not allow this information in its entirety to be inserted into the body of the report.
However, the Mission’s comments have been included verbatim as Appendix II to this
report.




                                                                                           12
                                                                            APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Pretoria conducted this audit in accordance with
generally accepted government auditing standards. The audit was conducted at
USAID/Uganda and at various participating financial institutions in Kampala, Uganda
from October 17 through 28, 2005. It was designed to ascertain whether USAID/Uganda
managed its Development Credit Authority (DCA) guarantees to ensure that selected
intended results were achieved.

In planning and performing the audit, we assessed the effectiveness of internal controls
related to DCA guarantees. We identified pertinent internal controls such as (1) the
Mission’s documentation pertinent to managing its DCA guarantees, (2) the partnering
financial institutions’ procedures regarding DCA guaranteed loan approvals, and (3) the
Mission’s annual self-assessment of internal controls in accordance with the Federal
Managers Financial Integrity Act. Relevant criteria included USAID’s Automated
Directives System 249, USAID’s Office of Development Credit’s 2004 DCA Operations
Manual, and Office of Management and Budget Circular No. A-129.

The audit scope encompassed USAID/Uganda’s DCA guaranteed loans as of
September 30, 2005 for its Phase I and Phase II programs. The 256 loans guaranteed
under Phase I made credit of $22.5 million available, while guaranteeing a maximum of
$11.5 million. The 55 loans guaranteed under Phase II made credit of $1.7 million
available, while guaranteeing a maximum of $0.87 million. As of September 30, 2005,
USAID had signed 143 guarantees world-wide, which accounted for a cumulative utilization
of nearly $317 million (these figures are unaudited).

The intended results related to USAID/Uganda’s DCA guaranteed loan portfolio
guarantees selected for review included among other things, determining whether:

    •   Loans supported the strategic objective(s) specified in the documentation
        submitted by the Mission.

    •   Loans were made to qualified borrowers for qualified projects as specified in the
        guarantee agreement between USAID and the partnering financial institution.

    •   Activities funded by the loan guarantees represented the intended purpose
        stipulated in the partnering financial institutions’ loan files.

The audit scope did not include DCA guarantee macro-level results, such as impact on
unemployment, job creation, or other economic growth indicators. In addition, there
were no prior audit findings affecting the areas reviewed in this audit. There was a
scope limitation during the audit because one of the financial institutions selected for
review canceled our scheduled borrower loan file reviews and a site visit.




                                                                                      13
Methodology
To answer the audit objective, we performed reviews of five financial institutions
participating in USAID/Uganda’s loan guarantees as of September 30, 2005. These five
financial institutions were chosen because they represented different sectors—
international financial institutions, indigenous financial institutions, and continental Africa-
based financial institutions. We also included those financial institutions which had
experienced default claims under DCA guarantees.

For four of the five financial institutions we visited, we were able to review DCA-
guaranteed loans selected on a judgmental basis. Where possible, the judgmental basis
for the reviews for each financial institution included representation of loans that were
deemed “problem loans” (with a loan default being claimed or with incidents of late
payment) as identified by the financial institutions, along with loans which were
considered “good loans.” We reviewed the files of all defaulted borrowers where the
financial institutions have filed claims; as of September 30, 2005, three claims were
filed. In this effort, we verified compliance with USAID’s requirements in terms of notice
of default, attempts to recover amounts due, and adherence to the filing waiting period.

We interviewed Mission staff and the Mission’s contractor staff responsible for DCA
monitoring and reviewed their pertinent documents. We also interviewed financial
institution officials and reviewed selected DCA guaranteed loan files. When necessary,
we supplemented information found in the DCA guaranteed loan files by questioning
financial institution officials on specifics of the DCA-guaranteed loan. We also
interviewed selected borrowers and conducted site visits to observe certain activities
funded under the DCA guaranteed loans.

We did not set a materiality threshold for the audit objective as the nature of the audit did
not lend itself to the establishment of such a threshold.




                                                                                             14
                                                                               APPENDIX II




   MEMORANDUM

   TO:                  Regional Inspector General/Pretoria, Jay Rollins

   FROM:                Margot Ellis, Mission Director, USAID/Uganda

   SUBJECT:             USAID/Uganda Comments on the 12/29/2005 Draft Audit of
                        USAID/Uganda's Development Credit Authority Program (Report No.
                        4-617-06-XXX-P)

   DATE: February 3, 2006
               ___________________________________________________

   The Mission has reviewed the draft copy of the RIG Audit Report of USAID/Uganda's
   Development Credit Authority and concurs with all five recommendations. The Mission
   has initiated actions to address these recommendations, and is preparing supporting
   documentation for closure. Further, Mission will work with the EGAT/Office of
   Development Credit (ODC) to on implementation of recommendations No. 2 and 3.

   Mission’s response to the 5 recommendations

   Recommendation No. 1: We recommend that USAID/Uganda develop interim
   utilization goals for the Development Credit Authority program.

   Mission Response: Mission concurs with this recommendation. The Mission will
   incorporate these targets into its Performance Management Plan. [Target Date for
   Completion: March 30, 2006)

   The targets will subsequently be analyzed semiannually following the submission of a
   bank’s Qualifying Loan Schedule (QLS) to determine follow-up actions based on a
   guarantee’s under- or over-performance of targets.

   Recommendation No. 2: We recommend that USAID/Uganda develop Mission specific
   procedures to require periodic site visits by Mission personnel and/or their contractor to
   financial institutions and borrowers in order to improve the monitoring of Development
   Credit Authority loan guarantees. When site visits have been performed, the visits
   should be documented and maintained in the program files.

   Mission Response: Mission concurs with this recommendation. [Target Date for
   Completion: March 30, 2006]




U.S. Agency for International Development
Plot 42 Nakasero Road                        Tel: (256-31 or 41) 387-387
P.O. Box 7856                                Fax:(256-31 or 41) 387-292                   15
Kampala                                      http://www.usaid.or.ug
Electronic and paper copies of summaries of the site visit schedule, site visit reports and
biennial reviews will be maintained in the program files.

Recommendation No. 3: We recommend that USAID/Uganda submit written
notification to the financial institutions participating in the Development Credit Authority
program requiring that the borrower’s address, type and value of collateral (when it is
used to secure the loan guarantee), and the basis for determining borrower eligibility be
included in the notification letter for all future loan guarantees. If appraisals are required
by the financial institutions to secure the loan, appraisal copies should also be provided
with the notification letters.

Mission Response: Mission concurs with this recommendation. [Target Date for
Completion: March 30, 2006].

It should be noted that, in most of the examples of inadequate accountability provided in
the audit report, USAID/Uganda and its contractor were able to effectively hold the
financial institution accountable for misrepresentation of information by the borrower
(i.e., with respect to collateral) prior to the claim request. With respect to other
information requirements (e.g., borrower’s address and value of collateral), in June 2004
the USAID/Uganda contractor identified the need for such additional information on the
online Transaction Report for the USAID Credit Management System (CMS) database.
This Transaction Report captures the relevant information from the financial institution’s
notification letter in CMS. All subsequent transactions data on borrower addresses and
collateral values is requested, received and recorded in CMS, although the type of
collateral used (e.g., buildings, land, equipment, vehicles, warehoused commodities et
al), is not recorded. With the additional monitoring activities described in the previous
recommendation, the Mission believes that the accountability and use of USG funds will
be further strengthened.

Recommendation No. 4: We recommend that USAID/Uganda de-obligate the
$100,000 in subsidy funds associated with the reduction in the loan portfolio amount for
the one inactive financial institution.

Mission Response: Mission concurs with this recommendation. USAID/Uganda
initiated and completed the process to de-obligate $100,000 in January 2006. We intend
to re-obligate these funds prior to the end of FY2006 to support other DCA guarantees in
Uganda. According to ODC and the AID/Washington Bureau for Policy and Program
Coordination (PPC), although the Mission has completed the required de-obligation in
MACS, re-obligation cannot occur before the end of the third quarter FY 2006. [Target
Date for Completion: September 30, 2006]

Recommendation No. 5: We recommend that USAID/Uganda de-obligate $5,317 in
subsidy funds related to the unused loan guarantee for one inactive financial institution.

Mission Response: Mission concurs with this recommendation. USAID/Uganda will
immediately proceed to terminate the remaining DCA facility and de-obligate $5,317 of
remaining subsidy funds. This action should be completed by the end of the second
quarter of FY 2006. As discussed under Recommendation No. 4, we will re-obligate the
$100,000 plus $5,317 by the close of FY 2006 in order to support other DCA guarantees


                                                                                            16
in Uganda. [Target Date for Completion: March 30, 2006 (deobligation) and September
30, 2006 (reobligation)].


Incorporating additional information in the background for clarity

   (1) The second sentence of paragraph four of the background which begins
       “USAID/Uganda’s loan portfolio guarantees were composed of two multi-
       institutional DCA programs...” has incomplete information regarding phase I and
       II LPGs. The audit should clearly make this distinction specifically and we
       recommend substitution of the referenced sentence with the following for clarity.

 “USAID/Uganda’s loan portfolio guarantees are composed of two multi-institutional DCA
programs and one collateral management/warehouse receipts initiative. FY 2001-
funded LPGs are also referred to as phase 1 multi-institution guarantees in the audit
document. FY 2005- funded LPGs are referred to as phase 2. The performance audit
conducted in October 2005 focused on FY 2001 and 2005 LPGs that target micro, small
and medium enterprise financing, and did not audit the collateral management LPG.”

   (2) In addition we recommend that the background section incorporate a description
       of the three LPGs following the proposed language above with the text below to
       avoid ambiguity.

          a) An FY 2001 Micro, Small and Medium (MSME) Loan Portfolio Guarantee
             (LPG) with seven institutions which includes lending to micro finance
             institutions (MFIs).
          b) An FY 2005 Rural MSME LPG with five institutions that targets rural
             enterprises, and includes a transformed MFI, referred to as a micro
             finance deposit taking institution (MDI).
          c) An FY 2005 Collateral Management/Warehouse Receipts LPG with three
             institutions for non-perishable grain commodities that will increase the
             ability by traders (including farmer-owned cooperatives) to buy more grain
             earlier from farmers, improving the quality of the traded grain and
             increasing price stability for farmers in the market place.

The first DCA program was approved for a period of five years through January 31,
2007, with a facility of US$30,385,000 broken down as follows:

                                           Facility                      Subsidy
Allied Bank International                  2,000,000                      51,200
Barclays Bank                              4,000,000                     113,200
Centenary Rural Development Bank           4,385,000                     163,999
Citibank                                   4,000,000 ($3,500,000)        113,200
Nile Bank                                  2,000,000                      77,400
Stanbic Bank                               6,000,000                     208,800
Standard Chartered Bank                    8,000,000                     247,200

The second DCA program was approved for a period of four years through May 31, 2009,
with a facility of US$17,700,000. It includes a transformed and regulated deposit
taking MFI that receives USAID technical support.



                                                                                      17
                                         Facility                    Subsidy
Centenary Rural Development Bank         3,000,000                   156,300
Nile Bank                                4,000,000                   219,600
Stanbic Bank                             2,700,000                   156,060
Standard Chartered Bank                  6,000,000                   346,800
Uganda Microfinance Union Ltd.           2,000,000                   121,200


The third DCA program is for a Collateral Management/Warehouse Receipts program that was
approved for a period of three years (or six harvest seasons) through December 2008, with
a facility of US$11,654,000, disaggregated as follows:

                                         Facility                    Subsidy
Barclays Bank                            4,170,000                   172,221
Stanbic Bank                             3,314,000                   145,173
Standard Chartered Bank                  4,170,000                   182,646




                                                                                 18
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
